                 PEACE CORPS
      OFFICE OF INSPECTOR GENERAL
                               Vision

  To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
 goals set forth in the Peace Corps Act that Peace Corps Volunteers
   help the people of the countries in which they serve in meeting
   their needs for trained manpower, and help to promote a better
  understanding of the American people on the part of the peoples
served, and a better understanding of other peoples on the part of the
                           American people.




          Semiannual Report to Congress
          April 1, 2010 ­ September 30, 2010
                                             PEACE CORPS OFFICE OF INSPECTOR GENERAL



                                                      Table of Contents 
Highlights from this Report ......................................................................................................................1 
       Message from the Inspector General .................................................................................................. 1 
Management and Administration ............................................................................................................4 
       Agency Context .................................................................................................................................. 4 
       OIG Staffing........................................................................................................................................ 4 
       OIG Organizational Chart ................................................................................................................... 6 
Advice and Assistance Provided to the Agency and Others ..................................................................8 
       Status of PC/Morocco: Assessment of Medical Care and Death Inquiry ........................................... 8 
       Administrative Officers Conference ................................................................................................... 9 
       Handling of Volunteer/Trainee Allegations........................................................................................ 9 
       Peace Corps Data Center Cooling Unit Failure .................................................................................. 9 
Management and Performance Challenges ...........................................................................................12 
   Inspector General’s Statement .............................................................................................................. 12 
Audits ........................................................................................................................................................20 
       Overview ........................................................................................................................................... 20 
   Headquarter Audits ............................................................................................................................... 21 
       Peace Corps Fiscal Year 2010 Financial Statement Audit ............................................................... 21 
       Annual Review of Peace Corps Fiscal Year 2010 Information Security Program ........................... 21 
       Office of Safety and Security: Volunteer Safety and Security Program Audit ................................ 21 
   Post Audits ............................................................................................................................................ 23 
       PC/Kenya: Audit ............................................................................................................................... 23 
       PC/Moldova: Audit ........................................................................................................................... 24 
       PC/Paraguay: Audit .......................................................................................................................... 24 
       PC/Suriname: Audit .......................................................................................................................... 25 
   Special Reviews .................................................................................................................................... 27 
       PC/Ecuador: Special Review ............................................................................................................ 27 
       PC/Vanuatu: Review of Internal Control Weaknesses ..................................................................... 28 
       Peer Review of the Audit Organization of the Library of Congress OIG ........................................ 29 
Evaluations ...............................................................................................................................................32 
       Overview ........................................................................................................................................... 32 
   Country Program Evaluations ............................................................................................................... 33 
       PC/Suriname: Country Program Evaluation .................................................................................... 33 
       PC/Togo: Country Program Evaluation ........................................................................................... 34 
Investigations ............................................................................................................................................36 
       Overview ........................................................................................................................................... 36 
   Legacy Cases ........................................................................................................................................ 37 
       Investigation of a Volunteer Homicide at a West African Post ........................................................ 37 
       Search for a Missing Volunteer at a South American Post ............................................................... 37 
   Criminal and Misconduct-Related Investigations ................................................................................. 37 
       Sexual Assault Allegation at a West African Post ............................................................................ 37 
       Sexual Assault Allegation Involving a Former Volunteer ................................................................ 37 
       Sexual Assault Allegation at a North African Post ........................................................................... 38 
       Arrest of Former Employee for Embezzlement at a West African Post ........................................... 38 
       Extortion, Abuse of Authority, and Misconduct Allegations at an African Post ............................. 38 
       Improper Selection Criteria Allegation at Headquarters .................................................................. 38 
       Delinquent Reporting of a Missing Thumb Drive at Headquarters .................................................. 38 
       Volunteer Arrested for Drug Possession at a Central Asia Post ....................................................... 39 
       Conflict of Interest Involving Selection Criteria for a Vacancy Announcement.............................. 39 
       Misconduct Allegation Involving a Senior Headquarters Employee ............................................... 39 
       Wrongful Termination Allegation at Headquarters .......................................................................... 39 
       Embezzlement Scheme Allegation at a Central American Post ....................................................... 39 
       Child Abuse Allegation at a West African Post................................................................................ 40 
       Investigation of Federal Employee’s Compensation Act Recipients ............................................... 40 
       OIG FECA Investigation Saves Agency over $725,000 .................................................................. 40 
Tables ........................................................................................................................................................42 
       1: List of Reports: Audits, Evaluations, and Reviews ...................................................................... 42 
       2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use ..................... 43 
       3: Status of Reports Issued by OIG with Questioned and Unsupported Costs ................................. 44 
       4: Status of Reports Issued by OIG with Funds to be Put to Better Use .......................................... 45 
       5: Reports with Recommendations on which Corrective Action has not been Completed .............. 46 
       6: Summary of Investigative Activity ............................................................................................... 48 
       7: Summary of Hotline and Other Complaints ................................................................................. 49 
       8: References to Reporting Requirements of the Inspector General Act .......................................... 50
Appendix Reporting of Peer Reviews ...................................................................................................... 51
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL




                           Highlights from this Report 
                               Message from the Inspector General 

                              I am pleased to present the Peace Corps Office of Inspector General’s
                              (OIG) Semiannual Report to Congress for the period of April 1, 2010 -
                              September 30, 2010. OIG activities during this reporting period
                              underscore our continued commitment to promote and increase the
                              effectiveness and efficiencies of Peace Corps programs and operations.
                              During the reporting period we issued an audit of the Volunteer safety and
                              security program, as well as six post audits and evaluations and three
                              special audit reviews. Our investigative staff closed nine investigations
                              and saved the government more than $725,000 in Federal Employment
                              Compensation Act (FECA) claims.

                              In fiscal year (FY) 2009 the capacity of Peace Corps business operations
                              to support growth and expansion was identified as a management
challenge. This reporting period, all three OIG units collaborated on various assessments and other
reviews that make key recommendations vital to the agency’s plan for growth. The audit of the
Volunteer safety and security program is an important example of this work.

The agency has stated that the safety and security of its Volunteers is its number one priority. In our
view a well managed and effective safety and security function is also vital to the agency’s growth and
planned expansion. OIG’s audit of the Volunteer safety and security program recognized that while the
program has evolved significantly and substantial progress has been made in addressing safety and
security needs, it serves as a consultative office rather than an oversight office. As such it relies on the
Peace Corps’ overseas posts to request its assistance and implement its suggestions. The audit also
disclosed that posts independently manage their safety and security budget and personnel without
oversight from the Office of Safety and Security; therefore, no office accepted complete ownership of
the safety and security program. As a result, the agency’s security program lacks essential elements.
Implementing the recommendations contained in the report will strengthen the safety and security
program for existing Volunteers and help the agency provide effective safety and security for additional
Volunteers anticipated in the coming years.

Over the years, in particular last year, we reviewed some of the agency’s key headquarters’ level
business processes and made a number of recommendations that would improve efficiencies and
effectiveness associated with delivering services to Volunteers in the field; serve to strengthen internal
control; and ensure compliance with applicable federal laws, regulations, and Peace Corps policy.
However, although management concurred with most of the associated findings and recommendations,
it has not been timely in taking corrective actions necessary to remediate the deficiencies noted in the
related reports. The lack of timely remediation has prevented the agency from attaining the efficiencies
that implementation would have provided to its operations and has the potential of adversely affecting
the agency’s stated plans for growth in the coming years. Therefore, OIG identified the timely and
effective remediation of OIG findings and recommendations as a management and performance
challenge the agency will face in fiscal year 2010.
April 1, 2010 to September 30, 2010                                                                1
One factor contributing to the lack of timely remediation was the absence of a chief compliance officer.
This position had either been vacant or occupied by a staff member serving in a temporary, part-time
capacity since January 2009. As a result, corrective actions to implement OIG audit and evaluation
recommendations were hampered and their remediation did not receive sufficient priority by
management. Management filled the position of the chief compliance officer in August, 2010 and the
new chief compliance officer recently began a comprehensive effort of reviewing and following up on
the significant open recommendation backlog. We have pledged to work with the new chief compliance
officer to support the timely remediation of recommendations. Since the new chief compliance officer
joined the agency, we have closed 64 recommendations; 44 from FY 2010 and 20 made prior to FY
2010.

The Audit Unit has also continued its critical work in connection with the agency’s financial statement
audit by assisting the agency in improving the overall financial health of the Peace Corps in accordance
with Federal Managers Financial Integrity Act requirements. During this reporting period, OIG issued
final reports on post audits conducted in Suriname, Paraguay, Kenya, and Moldova; completed a peer
review of the audit organization of the Library of Congress OIG; and issued special reviews on Ecuador
and Vanuatu. The Audit Unit also initiated work in Mexico, Togo, Belize, Ethiopia, Mozambique,
Rwanda, and Albania.

The Evaluation Unit, in addition to being an integral part of the safety and security program audit, issued
reports for program evaluations conducted in Suriname and Togo, and initiated work on program
evaluations of Ethiopia, Cambodia, and the Volunteer Delivery System at headquarters.

The Investigation Unit was authorized by United States Attorney General Eric H. Holder, Jr. to exercise
statutory law enforcement powers. This authority will provide OIG with additional law enforcement
tools including the authority to, upon probable cause, seek and execute warrants for arrest, search
premises, seize evidence, make arrests without a warrant while engaged in official duties, and carry
firearms. In addition, the Investigation Unit is still working to help bring to justice those responsible for
Volunteers murdered in 1998 and 2009.

I am pleased to report that this year the Council of Inspectors General on Integrity and Efficiency
(CIGIE) presented us with two awards for excellence. The awards include a Special Act Award for our
multidiscipline inquiry into the death of a Volunteer and accompanying assessment of health care in
Morocco, and an award for our performance audit of the agency’s process for soliciting, awarding, and
administering contracts that combined the talents of our audit and evaluations staff.

The Peace Corps continues to position itself for growth and OIG is working to assist the agency in
enhancing its efficiencies and helping ensure its programs and operations are free of waste, fraud, abuse,
and mismanagement.



                                                         Kathy A. Buller
                                                         Inspector General



       2                                                          Semiannual Report to Congress
                     Management and Administration 
 
Agency Context 

As of September 30, 2010, 8,655 Peace Corps Volunteers and trainees were serving in 77 countries at 71
posts. This total includes 395 Volunteers and trainees funded by the President’s Emergency Plan for
AIDS Relief (PEPFAR) to work on HIV/AIDS projects at 13 posts. There are also 130 Peace Corps
Response Volunteers serving in short-term assignments in 34 countries (29 posts).

The Volunteers and their programs are supported by 852 American direct-hire staff: 187 overseas; 131
in the regional recruiting offices; and the remaining 534 at headquarters. Approximately 2,187 locally-
hired personnel complete post staffing. The Peace Corps also has corporate contracts domestically and
overseas, principally for guard services and training, and hires expert consultants, largely for training
and financial management.


OIG Staffing                                                                 

Joe Bodensteiner joined OIG as a senior special agent in June. Joe was previously a desk officer within
the Office of Investigations of the Treasury Inspector General for Tax Administration, where he handled
a wide variety of investigative policy matters. He previously served as a special agent and as an
attorney with the Nuclear Regulatory Commission OIG. He is a retired U.S. Army lieutenant colonel,
having served 20 years with the Judge Advocate General’s Corps on active duty and as a reservist. Joe
holds a bachelor’s degree from Niagara University and a law degree from Albany Law School.

Lisa Chesnel joined OIG as an executive assistant in April, working in the capacity of a writer/editor.
Lisa was previously an acquisitions editor at the State University of New York Press in Albany, N.Y.,
where she acquired over 36 books a year in the fields of education, communication, and Latin American
studies. In 2006, she was awarded the Whiting Week-in-Residence Fellowship by the Association of
American University Presses. Lisa served as a community economic development Peace Corps
Volunteer in Panama from 2007-2009 with her husband, Matthew Sheehey. She taught business skills
to a large sugarcane cooperative in central Panama. She holds a Master of Business Administration
from the State University of New York at Albany and a bachelor’s in English literature and Spanish
language from Saint Michael’s College in Colchester, Vt.

Snehal “Hal” Nanavati joined OIG as senior auditor in August. Hal has over 25 years of experience in
finance and internal auditing. Prior to joining the Peace Corps, he worked briefly in the Forensics
Division at the Environmental Protection Agency (EPA). Prior to EPA, Hal worked as the senior
director of internal audit for Revlon Corporation. He has also worked in finance, cost accounting, and
operations at various companies. At Revlon, Hal helped successfully implement the Sarbanes-Oxley
compliance project. He designed worksheets to document processes and key internal controls and
provided training to worldwide staff in financial processes, internal controls and testing. He has also
managed several complex and sensitive audit projects, code of conduct implementations, and fraud
       4                                                         Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL

investigations. He grew up in India and received his bachelor’s degree from Bombay University. He is
a certified public accountant, a certified management accountant, and also a chartered accountant in
India.

Danel Trisi joined OIG as a program analyst in June. In the spring of 2010 he completed a graduate
student apprenticeship with OIG. He earned a master’s degree in public policy and management from
Carnegie Mellon University, Heinz College, in May 2010. Danel previously worked as an associate
community manager for the Development Practitioners Forum and also completed an internship with the
United Nations’ World Food Programme at its Regional Bureau for Latin America and the Caribbean in
Panama. Additionally, Danel has worked with nongovernmental organizations in Argentina, supporting
youth development in impoverished communities. He served as a Peace Corps Volunteer from 2006-
2008 in Niger, where he worked to promote good health practices and to improve the quality of
education in village schools. He also earned a bachelor’s in management from California Institute of the
Arts.

Gerry Montoya, former assistant inspector general for audits, left OIG in May 2010. He is now the
Director/Attaché for the Department of State’s Office of Inspector General at the U.S. Embassy in
Baghdad.

At the end of this reporting period, the position of assistant inspector general for audit is vacant and a
new senior evaluator vacancy was announced. OIG is engaged in the hiring process and expects to fill
the positions soon.


                               




April 1, 2010 to September 30, 2010                                                                5
OIG Organizational Chart 


                                                             Inspector General
                                                              Kathy A. Buller




                                                        Deputy IG and Legal Counsel
                                                              Joaquin Ferrao



                     Executive Assistant                                                         Expert
                        Lisa Chesnel                                                          Robin Walker




                     AIG/Investigations                         AIG/Audits                    AIG/Evaluations
                     Geoffrey Johnson                             vacant                        Jim O'Keefe




                                Sr. Investigator                       Sr. Auditor                        Sr. Evaluator
                             Joseph Bodensteiner                      Bradley Grubb                    Susan Gasper



                                Sr. Investigator                  Sr. Auditor/Acting AIG                  Sr. Evaluator
                                 Joyce Shores                         Steven Kaffen                  Reuben Marshall



                                                                       Sr. Auditor                        Sr. Evaluator
                                Sr. Investigator                                                   April Thompson Miller
                                                                     Snehal Nanavati
                                 Mark Supple


                                                                       Sr. Auditor                        Sr. Evaluator
                         Criminal Research Specialist                Joseph Wagner                   Heather Robinson
                               Jeffrey Reichert

                                                                           Expert                         Sr.  Evaluator
                                                                       Jeffrey Lee                            Vacant



                                                                                                      Program Analyst
                                                                                                           Danel Trisi




     6                                                                                 Semiannual Report to Congress
                Advice and Assistance Provided to the  
                         Agency and Others 
 
Status of PC/Morocco: Assessment of Medical Care and Death Inquiry  

In the previous SARC we reported on the death of a Volunteer in Morocco. OIG made
recommendations in its PC/Morocco Assessment of Medical Care and Death Inquiry reports directed to
PC/Morocco’s medical unit, the Office of Medical Services (OMS), and the Office of Global
Operations. The intent of these recommendations was to improve the delivery and implementation of
health care to Volunteers. The Peace Corps Director concurred with all the recommendations and made
a firm commitment to implement them not only in PC/Morocco, but throughout Peace Corps’ posts as
appropriate.

Peace Corps addressed four out of eight recommendations concerning the way PC/Morocco organizes
its medical services and provides health care to Volunteers. OMS took immediate steps to increase its
oversight of medical care provided to PC/Morocco Volunteers. Agreements were made with private
firms, the government of Morocco, and the U.S. Embassy to provide medical evacuation of PC/Morocco
Volunteers as necessary. Additionally, a policy has been drafted to ensure effective transfer of patient
information between PC/Morocco medical unit personnel.

Peace Corps addressed 9 of 16 recommendations to OMS and to Peace Corps’ Office of Global
Operations. OMS has also developed plans to improve the quality of health care service to Volunteers
globally. OMS reorganized its operations and oversight functions, and the supervision of overseas
medical units was transferred to the Office of Volunteer Support (VS). In addition, VS has adopted a
“Quality Improvement Plan” to ensure Volunteers receive high quality health care service. OMS and
the Office of Global Operations are working to implement details of the plan. Requests for additional
OMS staff and Peace Corps Regional Medical Officers were approved so VS can conduct overseas
medical unit assessments, which include clinical oversight and evaluations of scopes of practice. Peace
Corps also issued a scope of practice policy that defines the levels of work to be performed by PCMOs,
based on their credentials and experience levels. These guidelines will be incorporated into PCMO
contracts globally. A more rigorous process for credentialing and providing continuing education to
overseas medical staff is being developed. PCMOs recently attended continuing education
presentations, which reinforced uncommon disorders that require immediate medical attention.

Efforts are underway to further clarify agency policies and guidelines pertaining to effective Volunteer
medical care. An escalation policy that was recently issued defines situations in which VS must be
notified of a significant illness of a Volunteer. An initiative to develop a process for the immediate
investigation of medical events is also underway.

OIG will continue to follow up and report on the agency’s progress.



       8                                                        Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL


Administrative Officers Conference  

OIG auditors facilitated training sessions on compliance and internal control as part of the Peace Corps’
annual administrative officers’ (AOs’) conference. The training was presented to approximately 76
Peace Corps AOs at three events held in Washington, D.C., the Dominican Republic, and Senegal. The
presentations included case studies and other interactive material on the administrative functions at
overseas posts and how to better ensure compliance with Peace Corps policies and federal regulations.
The training sessions assisted the agency in maintaining a competent staff by informing AOs about how
to avoid common deficiencies and promote best practices. By using the knowledge learned at the
training, AOs can help mitigate risks, reduce the number of instances of noncompliance at overseas
posts, and enhance administrative operations throughout the Peace Corps.


Handling of Volunteer/Trainee Allegations 

During this reporting period the Peace Corps Director re-emphasized, to Peace Corps staff, the
importance of interim policy statement (PS) 1-09. The policy outlines the importance of informing
Volunteers/trainees to report, to OIG, allegations of violations of federal laws, rules or regulations,
mismanagement, serious misconduct, gross waste of funds, abuse of authority, or a substantial or
specific danger to the public health and safety related to Peace Corps programs and operations. In
addition, the policy also ensures that Volunteer/trainees know that allegations are treated confidentially
by staff and reported to OIG. OIG has provided PS 1-09 training to country directors who attended
conferences during this reporting period.

OIG is, at the same time, increasing its initiatives to reach out to Volunteers and trainees. OIG auditors,
evaluators, and investigators have incorporated the contents of the policy statement into their entrance
conferences during post audits and evaluations, as well as during Volunteer/trainee interviews. OIG
provided input to the Office of Programming and Training Support for a specific training session
focused on this policy during Overseas Staff Training. OIG is also working with the Office of Global
Operations to ensure Volunteer/trainees understand the resources available to them.


Peace Corps Data Center Cooling Unit Failure 

OIG provided to the Peace Corps Director a memorandum, which documented a long standing deficient
condition at the agency’s data center. The condition relates to a lack of environmental controls to ensure
temperature and humidity are kept at acceptable levels. This issue was first brought to management’s
attention in a Notice of Finding and Recommendation issued by OIG’s external auditor during the audit
of the agency’s fiscal year (FY) 2008 financial statements in October 2008. The auditor also indicated
that the data center did not have an Uninterruptible Power Supply (UPS) to ensure that equipment can be
properly shut down during periods of unexpected power interruptions. The auditor recommended the
agency acquire and install the necessary equipment, which is critical because the data center does not
have 24/7 on-site staffing coverage.

These same issues were discussed in a separate study sponsored by Peace Corps management and
performed by BearingPoint Management & Technology Consultants in 2008. Further, an OIG audit
performed by OIG’s external auditor in 2009 confirmed that corrective actions had not been taken.
April 1, 2010 to September 30, 2010                                                               9
Although management had acknowledged deficiencies at the data center, it had been slow to take the
necessary corrective actions. A cooling unit failure that occurred after work hours in the summer of
2009 caused the data center UPS to fail, resulting in an unplanned shutdown of computer equipment.
Although management was able to remedy the temporary equipment failure, a permanent solution could
not be put in place immediately. Subsequently, management indicated that most of the related long-term
solutions had been completed. OIG’s external auditors are currently reviewing whether the corrective
actions taken are sufficient to fully remediate the deficient conditions found.

Based on the vulnerabilities disclosed by OIG audits and the consultant’s study OIG is concerned the
agency does not always place a high enough priority to ensure timely resolutions for operational
problems that are critical to Peace Corps accomplishing its mission. OIG will continue to follow up on
this matter.




      10                                                       Semiannual Report to Congress
             Management and Performance Challenges 

Inspector General’s Statement 

In accordance with the Reports Consolidation Act of 2000, OIG submitted eight challenge areas for
inclusion in the Peace Corps’ FY 2010 Performance and Accountability Report. It was determined that
these eight areas present the most significant management and performance challenges facing the Peace
Corps. In FY 2009 the Inspector General’s Statement on the Peace Corps’ Management and
Performance Challenges recognized five areas that are the most serious issues facing management.
Those same areas continue to present significant management and performance challenges at the Peace
Corps. In addition, this year OIG identified three new management and performance challenges. The
challenge areas are described below:
 
FY 2009 Challenges 
 
Challenge Capacity of Peace Corps Business Operations to Support Growth and Expansion

Last year we reported that as a result of the response to the President’s “call to service,” and as more
developing nations request Peace Corps programs, it is anticipated the agency will experience significant
growth. According to the Peace Corps Director’s Integrated Planning and Budget System (IPBS)
guidance for FYs 2011-2013, Peace Corps’ goal is to have 10,000 Volunteers on board by the end of FY
2011, 12,000 by the end of FY 2012, and 14,000 by the end of FY 2013. Such growth will necessitate
increased funding levels. Efficient and effective management of the resulting rapid growth and larger
budgets will continue to present challenges for agency management.

In our opinion, without enhancements to its business processes the agency will have difficulty
continuing to provide the current level of Volunteer support based on projected growth. Significant
increases in the number of Volunteers will have a major impact across overall operations and cause
considerable stress in the service delivery capabilities of several key business operations. Operations
most impacted include:

    •    Volunteer Recruitment and Selection
    •    Volunteer Support Services
    •    Financial Management
    •    Information Technology
    •    Acquisitions and Contracting
    •    Safety and Security
    •    Human Resources
    •    Administrative Services




        12                                                       Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL

As a result, we believe it remains a management challenge for the Peace Corps to ensure that business
operations can respond with an effective level of support in an era of increased volunteerism and
resulting rapid expansion of agency programs and/or operations around the world.
Challenge       Information Technology Management

In last year’s Challenges, we indicated that the agency had not established an adequate information
technology (IT) strategy or an effective IT governance process, as required by the Clinger-Cohen Act of
1996 and Office of Management and Budget (OMB) Circular A-130. Also, overall budgeting for IT
resources was not effective and had placed the agency at risk. The most significant risks have been, and
continue to be, associated with ensuring that limited resources will be put to use where most needed,
funds spent on contracts consistently meet requirements, and the IT infrastructure effectively supports
the Peace Corps mission. Achieving full compliance with federal laws and regulations that apply to
managing the Peace Corps IT infrastructure and improving the IT budget process are critical
management challenges.

Management is making progress in strengthening the Peace Corps’ IT architecture and security
management. We noted that seven of eight systems had been issued an authorization to operate by the
end of this fiscal year. However, the overall pace of this progress has been slow in coming into full
compliance with FISMA regarding adequate contingency planning and achievement of final
certifications and accreditations for 100 percent of its major information systems. Further, there are a
number of open IT-related recommendations that were made during prior FISMA reviews and financial
statement audits that have not been fully remediated, some dating back to audits performed in FYs 2003-
2006.

Challenge     Acquisitions and Contract Management

Last year we included a challenge area on acquisitions and contract management. Operations relating to
Peace Corps’ acquisitions and contracting are worldwide in scope adding complexities, not common at
most federal agencies. In FY 2010 the agency expended nearly $84.3 million for goods and services, or
approximately 21 percent of the Peace Corps budget. This figure includes expenditures of about $53.4
million for personal services contracts and nearly $31 million for other contracts. We mentioned in the
FY 2009 challenge that White House initiatives implemented through OMB have directed federal
agencies to undertake a number of initiatives relating to strengthening acquisitions and contract
management, including reducing baseline contract expenditures and achieving improvements in agency
contracting processes, such as reducing the use of high risk contracts. OMB has continued to emphasize
that agencies strive for making their procurement processes more efficient and cost effective.

Although progress is being made to improve the agency’s overall contracting processes, we believe
some of the same problems are impacting operations. For example, resourcing issues continue to impact
the ability to quickly implement plans for strengthening contract surveillance; compliance with
applicable laws and regulations; and customer support services. Additional personnel resources have
been authorized to assist with the agency’s management of the acquisition process. However, three
senior managers assigned to the Peace Corps’ acquisition workforce left within the last 12 months,
including both the chief and deputy acquisition officers. The requirements imposed upon the Peace
Corps’ acquisition organization continue to present challenges for already strained resources.



April 1, 2010 to September 30, 2010                                                            13
Challenge      Property Management

Accountability over Peace Corps property continues to present challenges for management. The FY
2010 (third quarter) balance sheet indicates the agency’s general property, plant, and equipment (PP&E)
has a net book value of about $29.6 million. Peace Corps’ general PP&E includes primarily vehicles,
office furniture, computer equipment and software. Property management involves organizational
activities related to acquiring, tracking, controlling, and disposing these items. In last year’s Challenges,
we reported that audits and investigations performed had disclosed that not all Peace Corps property is
adequately safeguarded or disposed in accordance with applicable federal and Peace Corps
requirements. Although we did find that certain policies regarding disposal of fleet vehicles have been
strengthened, our work in this area during FY 2010 concluded that issues with overall property
accountability have continued to impact operations.

We noted during the last 12 months there were significant problems with accountability of certain assets,
managing excess property, and recording and tracking. For example, we found at some Peace Corps
posts that records were not being updated to reflect all property that had been disposed and/or added to
inventory and periodic required physical counts were not being conducted. Our external auditors
reported that the agency had not taken the necessary corrective actions that were recommended last year
to ensure accurate tracking of assigned laptop computers at headquarters. As a result, there were still
problems determining the location of these assets. Other examples of deficient property management
includes failing to dispose of property identified as excess to needs in a timely manner and inadequate
physical control.

Ineffective property management unnecessarily exposes the agency to risks associated with fraud, waste,
and abuse and drives operating costs up. Agency management has informed us that a new property
accountability software solution is projected to be fully implemented in the fourth quarter of FY 2011.
However, the capabilities for improving accountability will not be known until the new system has been
fielded and an assessment made as to its effectiveness. As a result, improving overall property
management and strengthening internal control related to property accountability continues to be a
management challenge.

Challenge      Protection of Personally Identifiable Information

In FY 2009 we identified a challenge area in the agency’s management and internal control regarding
the protection of Personally Identifiable Information (PII). The Peace Corps routinely receives,
processes, and maintains significant amounts of PII. PII includes information that can be used to
distinguish or trace an individual’s identity, such as name, Social Security number, or biometric records.
Such information can be used to link to other data such as bank accounts and other financial or personal
information that can assist perpetrators in committing crimes associated with identity theft. During FY
2009 a number of cases of PII security breaches involving Social Security numbers, medical data, and
other PII data had been brought to our investigators’ attention. This trend has continued to be a problem
this fiscal year. In both this fiscal year and last, investigations into these security lapses disclosed
internal control weaknesses and failure to follow federal laws and regulations and Peace Corps policy on
protecting PII. As a result, we believe it continues to be a challenge for management to improve its
system for internal control over PII and ensure Peace Corps personnel consistently comply with
applicable federal and agency guidance.

      14                                                           Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


New Challenges FY 2010

Challenge      Capacity of Overseas Posts to Support Growth and Expansion

The Peace Corps is experiencing significant growth as it strives to achieve the President’s initiative to
increase the number of Volunteers by about 18 percent at the end of FY 2012 and approximately 38
percent by the end of FY 2016. The agency has proposed even more aggressive growth in the Director’s
IPBS guidance for FYs 2011-2013, increasing Volunteer strength by about 75 percent from its current
level by the end of FY 2013. Programmatic and administrative support operations face difficult
challenges ahead to ensure the growth process is efficient and effective. Further, the budget is
anticipated to increase significantly to accommodate the continued growth. The Peace Corps must
ensure headquarters functions can provide effective oversight and support to overseas posts while
developing streamlined processes to ensure “intelligent” growth and not just an increase in the number
of staff.

Peace Corps management and overseas posts face additional challenges as they prepare to support a
significantly increased numbers of Volunteers. Peace Corps must ensure that posts’ staffing, site
development, Volunteer training and support, and related infrastructure are sufficiently robust to support
the agency’s expansion into new countries and establishment of much larger programs in some existing
countries.

There are unique challenges faced by start-up and established posts, which have been designated for
high growth. Start-up operations require a level of expertise for U.S. direct hire (USDH) and other key
staff positions that is more advanced than what is normally required for to staff ongoing post operations.
For example, start-up USDH staff is called upon to establish relationships with key U.S. mission and
host country officials; recruit and train local staff; identify appropriate office and residential space;
negotiate and consummate leases; ensure an effective IT/communications infrastructure; and create and
develop pre-service and other trainings for new Volunteers. Established posts also need to effectively
plan, manage, and recruit experienced managers to fill key positions in anticipation of growth. Although
such challenges are known, we found significantly deficient conditions at recently re-opened and
established, high-growth designated posts we visited this year. These conditions related to ineffective
post management, weak overall internal control structure, and failure to comply with applicable federal
laws, regulations, and Peace Corps policy.

In FY 2010 the agency conducted a self assessment of current operations. The final report, titled “The
Peace Corps: A Comprehensive Agency Assessment,” was issued in June 2010. The Assessment
concluded that existing post planning and staffing required strengthening. It asserted that “there is a
need for agreement on what constitutes the basic level of support that Volunteers can expect when
serving in the Peace Corps . . .” and called for an analysis of post staffing patterns and support
requirements.

The Assessment identified critical program-related responsibilities of the agency. For example, posts
are responsible for “ensuring every Volunteer has a meaningful job and is properly trained to effectively
carry it out,” and, in this regard, are required to identify Volunteer site placements where the
Volunteers’ “skills and expertise are needed, wanted and will allow them to make a difference.”
Moreover, “the Peace Corps must establish a new level of commitment to ensuring Volunteers will

April 1, 2010 to September 30, 2010                                                              15
receive world-class language, cultural, and technical training in preparation for the meaningful work that
awaits them.” The ability of the agency to fulfill these critical responsibilities is directly tied to agency
management of human and budget resources.

The Assessment contains 63 recommendations; the implementation is just beginning. It will be a
management challenge to ensure the infrastructure requirements to adequately support growth are in
place prior to significantly increasing the number of Volunteers. Anticipating and effectively planning
and managing post staffing and infrastructure requirements is a significant challenge to the agency as it
continues to expand.

Challenge      Timely and Effective Remediation of OIG Findings and Recommendations

Based on the projected growth of Volunteers in the field, it is crucial that Peace Corps’ business
processes be capable of effectively meeting the challenges brought on through significant expansion.
Over the years, in particular last year, we reviewed some of the agency’s key headquarters’ level
business processes and made a number of recommendations that would improve efficiencies and
effectiveness associated with delivering services to Volunteers in the field; serve to strengthen internal
control; and ensure compliance with applicable federal laws, regulations, and Peace Corps policy.
However, although management concurred with most of the associated findings and recommendations,
it has not been timely in taking corrective actions necessary to remediate the deficiencies noted in the
related reports. Management has taken sufficient corrective actions to enable us to close just 6 of 68
recommendations made in FY 2010 audit reports that addressed deficiencies in key agency business
processes.

During FY 2010 we issued three audit reports that address significant issues with Peace Corps business
operations. For example, in a report issued in January we found that the agency’s Office of the Chief
Information Officer did not ensure its budget resources were adequate or expended efficiently; failed to
provide sufficient guidance to the Office of the Chief Financial Officer regarding requests for additional
funds; and did not comply with important provisions included in the Clinger-Cohen Act and OMB
Circular A-130. Another audit report issued in March discussed issues regarding improving the overall
contracting process through recommendations aimed at establishing new policy; improving customer
service; and ensuring full compliance with the Federal Acquisition Regulation and other applicable laws,
regulations, and Peace Corps policy. We also performed an audit of Peace Corps’ program on safety
and security of the more than 8,000 Volunteers who serve around the world. We found, among other
things, that the agency’s program for protecting Volunteers in the field lacked a clear management
structure, no single office accepted comprehensive ownership of the safety and security program, and
management did not ensure that Peace Corps overseas posts fully implemented required policies related
to its security program.

We have recently issued a preliminary report on our follow-up evaluation of the Volunteer Delivery
System (VDS). This system is used by the agency to recruit, select, and place Volunteers in the field. In
2003 OIG issued an evaluation report on the VDS and concluded that the system had significant
weaknesses, particularly in the areas of leadership and organizational change; information flow;
information technology; medical screening; customer service; and staffing and staff training. Our
follow-up reviewed actions taken by management to address the recommendations made in the previous
report. The evaluation results show that the Peace Corps did not fully address the recommendations

      16                                                          Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL

made in the 2003 report. At the time the report was issued, the agency concurred with all 24
recommendations and described specific plans for remediation of the findings. However, based on our
follow-up effort we have determined that many of the corrective actions agreed to by management were
either not initiated or were not fully carried out.

In 2008 OIG also issued a program evaluation report on the Peace Corps’ Medical Clearance System
(MCS), which is one component of the VDS. The MCS is the agency’s mechanism for medically
screening applicants to ensure that Peace Corps posts receive healthy Volunteers who can serve overseas
for 27 months. The 2008 medical clearance evaluation report contained 55 recommendations, seven of
which targeted the same medical screening weaknesses identified in the 2003 VDS evaluation report.
To date we have not received sufficient evidence that appropriate corrective actions have been taken to
fully remediate deficient conditions associated with nine of the 55 recommendations.

Management filled the position of the chief compliance officer in August 2010. This position had either
been vacant or occupied by a staff member serving in a temporary, part-time capacity since January
2009. As a result, corrective actions to implement OIG audit and evaluation recommendations were
hampered and their remediation did not receive sufficient priority by management. Many of the
significant deficiencies noted have remained in an open status for six months or more. The new chief
compliance officer has recently begun a comprehensive effort of reviewing and following up on the
significant open recommendation backlog. Timely remediation of recommendations is dependent on top
management’s full attention and support in correcting known deficient conditions, as well as having a
proactive agency compliance program in place.

Challenge      Accessibility of Useful and Accurate Data Related to Peace Corps Operations

Peace Corps has difficulty maintaining and accessing certain types of data regarding selected operations.
While conducting audits and evaluations over the past 12 months, OIG encountered problems obtaining
significant data for key business processes. In particular, data related to the following operational areas
was generally not readily available:

   •   Summary data related to employee retention and turnover
   •   Cost and cumulative impact of Volunteer medical accommodations
   •   Acceptance rate for Volunteer applicants
   •   Number of Volunteer applicants who do not fully match the skills requested by host countries

We found that some of the databases and information technology systems used by the agency do not
effectively capture and distribute useful data to decision makers. Data is often not centralized and
accessible to the staff that needs the information to perform their jobs. For example, the agency does not
have timely access to employee turnover and tenure data and could not produce the data needed to
determine the average length of time it takes to fill vacant positions. Gathering such data often requires
access to numerous systems and databases and staff must manually assemble it from multiple sources to
develop needed reports and information. This manual process is not efficient and can lead to errors
unless staff undertakes time-consuming data validation efforts. Furthermore, without timely access to
relevant data, the agency cannot easily obtain the data necessary for making informed management
decisions and assessing whether the agency is meeting its performance goals.


April 1, 2010 to September 30, 2010                                                               17
PAGE INTENTIONALLY LEFT BLANK
                                              Audits 

Overview 

The Audit Unit conducts audits and special reviews of agency programs and operations that support the
Peace Corps’ mission and its Volunteers serving around the world. The Audit Unit performs audits of
the agency’s field activities at overseas posts, focusing on financial and administrative operations, and
the agency’s domestic functions at headquarters and the regional recruitment offices. During the
reporting period, the Audit Unit worked with evaluators to produce a program audit of the agency’s
safety and security program, a critical Volunteer support function. In addition, along with the reports
included below, audits of Peace Corps operations in Albania, Belize, Ethiopia, Mexico, Mozambique
Togo, and Rwanda and are underway. Also, the Audit Unit assisted the Investigations Unit with a post
investigation of a staff member’s alleged improper activities. The Audit Unit also conducted a peer
review of the audit organization of the Library of Congress Office of Inspector General. Audits involve
extensive planning, problem solving, and coordination, often at overseas locations and cover a variety of
work processes carried out among interrelated departments and organizations. Most audits are
conducted by a single auditor under the direction and oversight of the assistant inspector general for
audits.

OIG audit work typically examines and reports on operational efficiency and effectiveness, financial
stewardship, and compliance with agency policy and federal regulations. Audit objectives are designed
to assess whether good management practices are followed; assets are adequately safeguarded; managers
are properly accounting for and using assigned resources; and operations are carried out in compliance
with federal laws, regulations, and applicable Peace Corps policies and procedures. A significant
component of all audits is the identification and reporting of waste, fraud, abuse, and mismanagement.
Audits are conducted in accordance with generally accepted government auditing standards issued by
the Comptroller General of the United States.

OIG also utilizes contracts with an independent public accountant (IPA) for legislatively mandated audit
work. The Accountability of Tax Dollars Act of 2002 mandates an annual audit of Peace Corps’
financial statements. OIG oversees and serves as the contracting officer’s technical representative for
contracts with the IPA to perform the agency’s annual audit. To fulfill its responsibilities, the Audit
Unit monitors the IPA’s work to ensure that it is of acceptable quality, in compliance with federal law
and professional standards, and is completed within guidelines established by the Office of Management
and Budget (OMB). The Audit Unit also contracts with an IPA in connection with OIG’s responsibility
for meeting specific requirements set by the Federal Information Security Management Act (FISMA).
These requirements include performing annual reviews of the Peace Corps’ information security
program and reporting related selected data to OMB.

In addition, the Audit Unit performs consulting and training activities in support of the overall agency
mission. Audit staff provides technical assistance to Peace Corps managers on issues related to financial
and administrative policies, procedures, best practices, and effective internal controls. The staff also
conducts training sessions and participates in regional conferences to strengthen the level of competence

      20                                                        Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL

of overseas personnel to more effectively and efficiently perform their functions in compliance with
policies and procedures.

Headquarter Audits 
Peace Corps Fiscal Year 2010 Financial Statement Audit 

During this reporting period OIG engaged an IPA firm to conduct an audit of the Peace Corps’ fiscal
year 2010 financial statements. This audit is required by the Accountability of Tax Dollars Act of 2002.
As of September 30, 2010, the audit was ongoing. OIG intends to issue the related independent auditor’s
reports through a transmittal memorandum under the Inspector General’s signature by the OMB-
mandated reporting date of November 15, 2010. Details regarding the audit results will be included in
the next Semiannual Report to Congress (SARC).


Annual Review of Peace Corps Fiscal Year 2010 Information Security Program 

FISMA requires federal agencies to establish security protections and a program to secure their
information systems from unauthorized access, use, disclosure, modification, and other harmful impacts.
This is governed through National Institute of Standards and Technology guidelines. In addition,
FISMA requires that each OIG to review its agency’s information security program and report results to
OMB annually on October 1. To meet this requirement, OMB has developed an on-line data collection
system for FISMA reporting from federal agencies and their respective OIGs. OMB extended this
year’s reporting deadline to November 15, 2010, due to significant changes impacting the reporting
process. The data reported to OMB is designed to measure the progress of developing and
institutionalizing a federal agency’s information security programs. As of September 30, 2010, the
review was ongoing. Comments on final review results will be covered in the next SARC.


Office of Safety and Security: Volunteer Safety and Security Program Audit 
IG-10-08-A

OIG reviewed the Peace Corps’ safety and security program to determine whether competent and
effective support for Volunteer safety and security has been provided throughout the world. In 2002, the
agency established the Office of Safety & Security and assigned safety and security coordinators to each
overseas post. Since that time, the program has evolved significantly and substantial progress has been
made in addressing the agency’s safety and security needs. Peace Corps has maintained a much larger
safety and security work force than comparable international nongovernmental organizations. Overall,
Volunteers overwhelmingly reported that they were satisfied with their level of safety and security and
staff member support.

Despite these achievements, OIG identified multiple areas where Peace Corps needs to improve in order
to ensure that the agency’s safety and security program is complete, implemented consistently, and
positioned to meet unique safety and security challenges. Although Peace Corps established the Office
of Safety and Security to provide oversight and management of all safety and security operations, it
served as a consultative office, not an oversight office, and relied on the Peace Corps’ overseas posts to
request its assistance and implement its suggestions. The posts independently managed their safety and

April 1, 2010 to September 30, 2010                                                              21
security budgets and personnel without oversight from the Office of Safety and Security. OIG found that
without a clear management structure, no office accepted complete ownership of the safety and security
program, and the agency’s security program lacked essential elements. As a result, Volunteers were
placed at greater risk because the agency did not ensure that posts fully implemented required safety and
security policies. Specifically, the Peace Corps had not:

   •   Developed a comprehensive security strategy and plan that articulated how the agency’s
       security policies related to the acceptance model
   •   Aligned safety and security personnel’s roles and responsibilities with the agency’s stated
       priority of safety and security
   •   Defined the skills and experience needed for all security positions
   •   Consistently hired people with adequate skills and experience to fill its safety and security
       positions
   •   Clearly defined the roles of headquarters safety and security staff and field safety and security
       staff to avoid unclear expectations and duplicate responsibilities
   •   Standardized training for safety and security personnel

In addition to the lack of defined roles and responsibilities within Peace Corps, the agency had not
formalized its relationship with the Department of State regarding safety and security responsibilities.
Therefore, Peace Corps could not always ensure that the appropriate resources and expertise were in place to
implement a consistent safety and security program. This increased the risk that posts had not fully
implemented essential security policies and practices that protect Volunteers. The recommendations
addressed the need for Peace Corps to re-evaluate its organizational structure and its staff positions
regarding safety and security to provide clearer, more competent support to overseas posts.

Management concurred with 27 recommendations and partially concurred with 1 recommendation. At
the end of the reporting period, 4 recommendations are closed and 24 remain open.

Funds to be Put to Better Use
Placement of PCSSOs overseas - $185,000 per year

Since the completion of the audit, the agency has worked to address OIG’s recommendations. On July, 30,
2010, the Director issued a memorandum that moved the technical supervision of safety and security
coordinators (SSCs) to the Office of Safety and Security. In August, all of the agency’s security personnel,
including field staff responsible for the safety and security functions of the agency, completed training. This
training was the first of its kind and support for another one next year has been approved by the Director.
Additionally, the agency performed an evaluation to determine if the safety of Volunteers and trainees is best
served by placement of the PCSSO overseas or domestically.

                                




       22                                                          Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL


Post Audits 
PC/Kenya: Audit 
IG-10-12-A
 
OIG issued its audit report on PC/Kenya in September 2010. The Peace Corps commenced its program
in Kenya in 1964. In January and February 2008, Volunteers were evacuated due to the violent
aftermath of the Kenya presidential election. Volunteers returned to Kenya in June 2008. At the time of
the audit, 75 Volunteers were engaged in three project areas: education, public health, and small
enterprise development. The current administrative officer arrived in March 2005 and the current
country director arrived at the post in mid-September 2009.

PC/Kenya’s financial and administrative operations require improvement and did not fully comply with
agency policies and federal regulations. OIG determined that post management’s quarterly and monthly
imprest fund verifications did not include a review of all reconciling documents. Further, the 2009
living allowance market basket survey was ineffective in validating the results of the Volunteer survey.
Moreover, the post did not perform a living allowance market basket survey in 2008. In addition, the
post did not analyze Volunteers’ responses to 2008 and 2009 settling-in surveys, nor conclude as to the
allowance’s adequacy, and the post did not perform related independent price surveys.

Controls and procedures over post property were inadequate or, in some cases, nonexistent. For
example, the staff member who maintained the information technology (IT) inventory listing also
performed the 2009 physical inventory verification, violating segregation of duties requirements.
Further, the post did not perform a physical inventory of its non-IT property in 2009. The listing of
property requested by and sent to headquarters in November 2009 was not updated from the prior year
submission and showed numerous discrepancies. In addition, the property officer and the administrative
officer did not perform the required periodic reconciliations.

A Peace Corps vehicle has been sitting idle on the post’s premises since 2007, awaiting registration
documents so it can be sold. The post actually sold the vehicle in November 2007 without the required
registration documents for about $23,000 in Kenya shillings, only to be required to return the proceeds
when the buyer was unable to register the vehicle. In addition, the post miscalculated the 2009 and 2010
contracts of its personal services contractors, and did not reflect compensatory time on timesheets or
official time and attendance records. Further, the post did not implement the agency’s medical supplies
policy, and OIG found quantity discrepancies between its test counts and the medical supplies inventory
records.

Management concurred with 22 recommendations and did not concur with one recommendation. At the
end of the reporting period, 13 recommendations are closed and 10 recommendations remain open.
Questioned costs
Miscalculation of 2010 PSC contracts - $800

Funds to be Put to Better Use
Peace Corps vehicle sitting idle and awaiting sale for over two years due to the absence of registration
documents - $23,000


April 1, 2010 to September 30, 2010                                                              23
PC/Moldova: Audit 
IG-10-11-A

OIG issued its audit report on PC/Moldova in August 2010. In 1993, the government of Moldova invited
Volunteers to come to its country. Volunteers work in 97 towns and villages. Since the program's
inception, more than 400 Volunteers have served in Moldova in English language instruction,
organizational development, agriculture, and agribusiness programs. OIG determined that, in general,
Peace Corps/Moldova’s financial and administrative operations were functioning effectively and
complied with agency policies and federal regulations. We also found that the post had established the
necessary separation of duties over financial responsibilities, implemented a communication system that
provided cost savings by routing office calls through a cell phone number, maintained complete files for
personal services contractors, and proactively reviewed its own internal control through the
Administrative Management Control Survey.

OIG identified a few areas in need of improvement. Specifically, the cashier did not provide copies of
paid general receipts to payees as proof of payment; the imprest fund level needed to be reduced; and the
post did not obtain a security recertification for one of its foreign service national staff members. OIG
also addressed the need for Peace Corps to update its policies and procedures to require security
recertification of foreign service nationals, as required by the U.S. Department of State Foreign Affairs
Manual.

Management concurred with all 12 recommendations. At the end of the reporting period, 6
recommendations remain open.

 
PC/Paraguay: Audit 
IG-10-10-A

OIG issued its audit report on PC/Paraguay in August 2010. PC/Paraguay, opened in 1967, is one of the
longest continuously operating Peace Corps posts in the world. Nearly 3,000 Volunteers have served
there, with 206 Volunteers in-country at the time of OIG visit. OIG found that the post’s financial and
administrative operations required improvement in a number of areas and that it did not fully comply
with agency policies and federal regulations. In addition, PC/Paraguay lacked the necessary controls
over certain operations. Deficiencies included insufficient separation of duties over property and
medical supply responsibilities, inadequate system controls for bills of collection, and poor supervisory
review of contracts and travel vouchers.

PC/Paraguay staff and Volunteers did not properly manage or provide oversight of grant funds. As a
result, a third-party assigned responsibility to manage grant funds for a scholarship program was able to
maintain $21,297 in funds outside the required bank account. This action eventually led to
mismanagement of funds and a shortage of approximately $5,523. OIG also addressed the need for
greater oversight and guidance from the headquarters office responsible for the Peace Corps Partnership
Program. Many of these issues were addressed in a management implication report discussed in the
previous SARC.



      24                                                         Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL

PC/Paraguay’s process for billings and collections did not comply with Peace Corps policies. The
billing officer used an external database instead of using the official Peace Corps accounting system for
billing, resulting in incomplete records and duplicate data entry. Further, the billing officer did not
receive a copy of paid receipts, maintain adequate supporting documentation in the bill of collection
files, or record bills of collection for various types of collections.

OIG determined that procurement files were not always complete and contained errors. PC/Paraguay
did not have on file security clearance updates for two personal services contractors. It also neglected to
implement the requirement for personal services contractors to sign intelligence background information
certificates attesting to any previous employment by any intelligence organization or of any intelligence
related activities. PC/Paraguay also inappropriately executed a lease, the term of which was in violation
of the Peace Corps Act.

Several of OIG’s recommendations addressed systematic weaknesses in Peace Corps policies and
procedures for Peace Corps Partnership Program project management, property management, and the
International Cooperative Administrative Support Services. For example, recommendations to track and
monitor Peace Corps Partnership Program projects will increase early detection of potential grant
mismanagement and deter potential fraud and abuse of donated funds.

Management concurred with all 49 recommendations and began implementing corrective action. At the
end of the reporting period, 11 recommendations remain open.

Unsupported Costs
Five Peace Corps Partnership Program projects that did not have receipt of payments - $39,844

Funds to be Put to Better Use
Inaccurate personal services contractor bonus - $210

 
PC/Suriname: Audit 
IG-10-06-A

OIG issued its audit report on PC/Suriname in May 2010. The Peace Corps began its program in
Suriname in 1995. Since then, approximately 360 Volunteers have served there. At the time of the
audit, 39 Volunteers were engaged in two project areas: community health education and micro-
enterprise and tourism development. The country director arrived at the post in January 2007 and the
administrative officer arrived in March 2009. Between August 2008 and March 2009, the financial
assistant served as acting administrative officer.

OIG found that the post’s financial and administrative operations needed improvement and did not fully
comply with agency policies and federal regulations.

Deficiencies were noted in three of the five internal control standards of the Government Accountability
Office: standards requiring a control environment, control activities, and effective monitoring. OIG
found that post management did not perform complete imprest fund verifications and vary the time of
the verification each month. In addition, Volunteers were not always paid their living and settling-in

April 1, 2010 to September 30, 2010                                                               25
allowances on time, and personal services contractors (PSCs) were not always paid their salaries on
time. Further, the post did not track and bill for personal usage of office landline phones; the
administrative officer did not review the bills of collection log to identify deficient items for follow-up;
and the log’s descriptions were not always sufficiently explanatory to permit an informed review.

Controls and procedures over property inventory were deficient, and the post’s property inventory
database was not updated and thus contained numerous discrepancies. The same person who maintained
the database also conducted the physical inventory verification, and the property officer and the
administrative officer did not perform the required reconciliations. Vehicle usage logs were not
reviewed, initialed, and dated by all required individuals to verify that the post’s vehicles were being
used appropriately, and the logs contained discrepancies.

Timesheets were not always submitted timely and did not always indicate the extra hours worked that
resulted in compensatory time. Further, the official time and attendance records were not reviewed by
supervisors and contained discrepancies. Also, the post’s PSC files were incomplete and some lease
documents were incorrectly prepared. The post did not implement the agency’s medical supplies policy,
while differences in quantities and expiration dates were noted between OIG test counts and the medical
supplies inventory records. Finally, the post’s files contained administrative, program, and Volunteer
documents dating back to the inception of the program in 1995. These files should have been disposed
of in accordance with Peace Corps policy.

Management concurred with all 62 recommendations. At the end of the reporting period, all
recommendations are closed.

Questioned Costs
Emergency payments made to Volunteers due to the late arrival of living allowance checks that were not
deducted from subsequent living allowance payments - $1,733

Funds to be Put to Better Use
Volunteer hotel and per diem charges in the capital resulting from the late arrival of settling-in and
living allowance checks - $1,785




      26                                                          Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL


Special Reviews 

PC/Ecuador: Special Review 
IG-10-05-SR

OIG conducted a special review of PC/Ecuador in response to an OIG hotline allegation. A former
country director was alleged to have improperly purchased and sold government property;
inappropriately profited from his/her position; and was involved in other activities that were potentially
fraudulent and wasteful. This special review employed both OIG audit and criminal investigative staff.

OIG’s review found the Peace Corps policies and procedures allowed too much discretion to overseas
posts, internal control was weak or nonexistent, and headquarters level management oversight was
insufficient. As a result, a former country director may have personally benefited from the purchase of
Peace Corps vehicles. Furthermore, some vehicles purchased were not in the best interest of the Peace
Corps, and three vehicles were sold for significantly less than their market values.

In addition, internal control over property was deficient and the post’s property inventory database
contained numerous discrepancies. There was inadequate segregation of duties; the same person who
maintained the post’s property database also performed the physical inventory verification. Further, the
property database was not updated for changes and the required periodic reconciliations by the property
control officer and the administrative officer were not performed. Similar property accountability
problems were found with the post’s medical supplies. As a result, OIG was unable to verify the
accuracy of medical inventory on hand.

Audit work relating to staff turnover disclosed that the post experienced an 86 percent staff attrition rate
between January 1, 2005, and January 31, 2009. A high staff attrition rate is often an indication of more
serious management or systemic problems and can also impact an organization’s ability to maintain
effective internal control. Significant loss of staff at the post resulted in paying out $1.2 million in
severance and separation payments during the three year period under review. Although the post was
following local labor laws, OIG determined that in the 29 termination cases examined, counseling and/or
mediation between staff and post management would have been appropriate and may have minimized
the high staff turnover, lessening the budgetary impact. OIG did not find any evidence of efforts to
resolve conflicts between the post’s management and terminated employees.

Management concurred with 20 of the 24 recommendations. At the end of the reporting period, 4
recommendations are closed and 20 remain open.

Questioned Costs
Loss from sale of PC vehicles -$54,000

Funds to be Put to Better Use
Minimizing the cost of termination payments - $1,200,000




April 1, 2010 to September 30, 2010                                                               27
PC/Vanuatu: Review of Internal Control Weaknesses 
IG-10-01-SR

The OIG Audit Unit provided advice and assistance related to suspected misconduct at the post. The
new country director identified irregularities when reviewing financial documents and promptly
communicated the concerns to the OIG Investigation Unit. OIG investigated fraudulent travel claims
and suspicious vehicle sales; the results were provided in the previous SARC. At the request of the
Investigation Unit and the country director, the Audit Unit provided support services and analyzed
additional financial and administrative functions at the post.

The Audit Unit conducted a site visit in April 2009 to assess the internal control system at the post.
Overall, controls were not in place, not operating effectively, and therefore the post could not ensure
proper mitigation of fraud risks. The assessment identified the following areas containing control
weaknesses, which required improvement:

    •   The post did not properly administer the Peace Corps medical officer’s contract. As a result, we
        identified questionable charges for business licenses, excessive home leave, an unusually high
        contract value, and unsupported health benefit payments.

    •   The post’s medical office did not ensure adequate control over medical supply inventories. The
        medical supplies were not properly recorded when dispensed and the medical supply records
        were incomplete.

    •   Medical supply procurements were inefficient and payment records were incomplete. Further,
        medical payment records were incomplete and not attributed to a particular patient. As a result,
        the post paid for unallowable medical laboratory services.

    •   The post did not properly manage vehicles and other property, nor provide adequate
        safeguarding of assets. OIG determined that fuel records were incomplete and fuel usage was
        not supported by vehicle usage; vehicle maintenance and repairs were not competitively
        procured; and the property relocated to a new office space was not well documented in the
        property records. In addition, OIG identified irregularities in the sale of a vehicle.

    •   The post did not maintain adequate documentation for staff travel. OIG was unable to obtain
        airline receipts for several travel vouchers.

The Audit Unit provided the results of the advisory assessment to the country director and regional
management. The country director recognized the control weaknesses and took immediate corrective
actions.

 




        28                                                       Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


Peer Review of the Audit Organization of the Library of Congress OIG 
IG-10-06-SR

Within the OIG community, peer reviews of audit and investigative functions are conducted to assure
quality programs. During this reporting period, OIG reviewed the system of the internal control for the
audit organization of the Library of Congress Office of Inspector General for the period ended March
31, 2010. OIG found the Library of Congress audit organization’s quality control system to be suitably
designed and complied with to provide reasonable assurance of performing and reporting in conformity
with applicable professional standards in all material respects. This review was conducted in conformity
with the Council of the Inspectors General on Integrity and Efficiency Guide for Conducting External
Quality Control Reviews of the Audit Operations of Offices of Inspector General.




April 1, 2010 to September 30, 2010                                                            29
PAGE INTENTIONALLY LEFT BLANK
                                         Evaluations 
 
Overview 

The Evaluation Unit provides the agency with independent evaluations of Peace Corps programs,
operations, and management, which includes overseas posts and domestic offices and programs. It
promotes greater efficiency and effectiveness by identifying best management practices, recommending
program improvements and the means to comply with Peace Corps policies and federal regulations.
During this reporting period, OIG continued to provide management with a comprehensive assessment
of how effectively overseas country programs are functioning. Along with the reports included below,
country program evaluations in Ethiopia, Cambodia, Jamaica, and Romania are also underway.

OIG also began fieldwork on a follow-up evaluation to its 2003 evaluation of the Volunteer Delivery
System to determine progress in the agency’s Volunteer recruitment selection and placement processes
and to assess how the agency is preparing for growth in worldwide operations.

Evaluations are conducted under the direction and guidance of the assistant inspector general for
evaluations and in accordance with the Quality Standards for Inspections published by the Council of
the Inspectors General on Integrity and Efficiency. Country program evaluations include extensive
interviews, reviews of relevant documents, physical observations, and analysis by evaluators. The
evaluators interview Volunteers and headquarters and post staff, as well as key host country and U.S.
government officials. The evaluators select a stratified judgmental sample of at least 20 percent of
currently serving Volunteers, based on their length of service, site location, project focus, gender, age,
marital status, and ethnicity. Evaluators conduct the bulk of the Volunteer interviews at their homes and
worksites and inspect their housing using post-defined criteria. The period of review for a country
program evaluation is one full Volunteer cycle (typically 27 months).

For country program evaluations, OIG uses the following researchable questions to guide its work:

    •   To what extent has the post developed and implemented programs intended to increase the
        capacity of host country communities to meet their own technical needs?
    •   To what extent has the post implemented programs to promote cross-cultural understanding?
    •   To what extent does training provide Volunteers the necessary knowledge, skills, and attitudes to
        integrate into the community and perform their jobs?
    •   To what extent has the post provided adequate support and oversight to Volunteers?
    •   To what extent are post resources and agency support and oversight effectively aligned with the
        post’s mission and program and agency priorities?
    •   Is the post able to adequately administer the President’s Emergency Plan for AIDS Relief
        (PEPFAR) program, support Volunteers, and meet its PEPFAR objectives? (Only applicable to
        posts receiving PEPFAR funds.)



        32                                                      Semiannual Report to Congress
                               PEACE CORPS OFFICE OF INSPECTOR GENERAL

The findings and recommendations provided in evaluation reports are reviewed by agency stakeholders
affected by the review to ensure: (1) that OIG’s recommendations are feasible and (2) that OIG reports
are useful to the agency in its effort to strengthen internal controls and correct deficiencies.

Country Program Evaluations 

PC/Suriname:  Country Program Evaluation 
IG-10-9-E

OIG issued its final country program evaluation of PC/Suriname in July 2010. Over 300 Volunteers
have served in Suriname since the program began in 1995. At the time of the evaluation there were 36
Volunteers serving in community economic development and health education programs. In recent
years, the post has faced challenges in developing and maintaining effective volunteer assignments,
while a period of high senior staff turnover impacted the stability of post operations.

While obstacles remain, the post has made progress in increasing the effectiveness of its operations.
Within the last two years, the post has developed two distinct projects and has strengthened relationships
with project partners. Suriname government representatives told OIG that they have positive working
relationships with Peace Corps staff and believe Volunteers have good language skills, are well-
integrated into their host communities, and are making contributions to development. However,
government officials would like a more structured collaboration with Peace Corps, with program sectors
and Volunteer assignments more directly centered on ministry goals. Peace Corps has also partnered
with national and international nongovernmental organizations, which provide more structured
assignments for Volunteers, capacity building opportunities for their communities, and opportunities for
cost-sharing. However, the post does not have current agreements with project partners; this has created
some confusion about the roles and responsibilities of the cooperating parties.

In addition, OIG’s evaluation identified several areas that could be improved to increase the country
program’s overall effectiveness. The evaluation determined:

•   Post does not adequately engage host communities during site development, and is not adequately
    assessing host community needs or its capacity to host a Volunteer.
•   Post is not providing adequate technical training to Volunteers to prepare them for their assignments.
•   Some Volunteers are receiving funds for their community projects through unauthorized channels.
•   Staff members require additional training to ensure they are prepared to carry out their
    responsibilities during the activation of an Emergency Action Plan (EAP).
•   Volunteer housing did not consistently conform to established housing criteria.

Management concurred with all 23 recommendations. At the end of the reporting period, 5
recommendations remain open.


                                



April 1, 2010 to September 30, 2010                                                                     33
PC/Togo:  Country Program Evaluation 
IG-10-10-E

OIG issued its final country program evaluation of PC/Togo in September 2010. Over 2,500 Volunteers
have served in Togo since the program began in 1962. At the time of the evaluation there were 94
Volunteers serving in the following four projects: community health and AIDS prevention, natural
resource management, small enterprise development, and girls’ education and empowerment.

Togo’s development needs are considerable and include high infant and maternal morbidity rates, poor
health care, environmental degradation, poor soil fertility, extensive poverty and illiteracy, and slow
economic growth. Toward these development needs, the post is successfully meeting the first goal of the
Peace Corps mission – to help the people of interested countries in meeting their need for trained men and
women – and Volunteers report success accomplishing their project goals.

While the post does not face major obstacles or constraints in its program operations, OIG’s evaluation
identified several areas that could be improved to increase effectiveness. Some limitations were identified in
how Volunteer sites are developed – particularly in regard to counterpart selection. Many communities do
not provide housing for Volunteers as required by project agreements, and the post is not engaging in
regular, substantive communication with national ministry officials. Its Project Advisory Council activities
are also infrequent and not well-organized.

Training is a strong point at the post. Volunteers were satisfied with the effectiveness of pre-service training
and expressed high regard for the host family experience as good preparation for service. OIG identified two
areas where training could be improved: local-language training and cross-cultural training sessions.
Volunteers reported they were generally well-supported by post staff, but they flagged communication from
program staff as an area that needs improvement. They expressed satisfaction with the quality of medical
care and with safety and security support. However, OIG found that Volunteers were not in compliance with
the post’s out-of-site policy and Volunteer site locator forms frequently contained inaccuracies, which would
make them less useful during an emergency situation.

Management concurred with all 23 recommendations. At the end of the reporting period, 14
recommendations remain open.




      34                                                            Semiannual Report to Congress
                                       Investigations 
 
Overview 

OIG is authorized to conduct investigations on waste, fraud, abuse, and mismanagement in Peace Corps
programs and operations both domestically and overseas. OIG investigates both criminal and
administrative misconduct allegations involving Peace Corps staff, contractors, and Volunteers,
including violations of Peace Corps and U.S. government standards of conduct. OIG utilizes various
techniques to investigate allegations of wrongdoing. In addition, the Investigation Unit continues to
work with other offices within the Peace Corps, and with external law enforcement agencies.
Allegations are forwarded to OIG through various means, including OIG audits and evaluations, OIG
hotline complaints, and by Peace Corps stakeholders, such as Volunteers, trainees, staff, contractors, and
other federal entities, as well as the general public.

Prior to September 1, 2008, the Investigation Unit managed and coordinated the agency’s participation
in the investigative and prosecutorial processes of cases involving violent crimes committed against
Volunteers overseas. This function was transferred to the Peace Corps Office of Safety and Security.
As agreed upon, OIG continues to provide oversight of legacy cases that occurred prior to the transfer of
responsibility. The Investigation Unit remains responsible for investigating allegations of criminal
wrongdoing, including violent crimes, committed by Peace Corps staff members, contractors, and
Volunteers.

During this reporting period the Investigation Units conducted investigations of criminal and
misconduct-related issues; allegations of sexual assault; and investigations of fraud associated with the
Federal Employee’s Compensation Act, resulting in over $725,000 in savings to the government. OIG
also continues to forward suspension and debarment referrals to the Peace Corps Office of General
Counsel. A case reported in the previous Semiannual Report to Congress was accepted by the U.S.
Attorney’s Office for prosecution.

In July, Attorney General Eric H. Holder, Jr. authorized OIG to exercise statutory law enforcement
powers pursuant to Section 6(e) of the Inspector General Act of 1978, as amended and in accordance
with the Attorney General Guidelines for Offices of Inspector General with Statutory Law Enforcement
Authority. This authority will provide OIG with additional law enforcement tools, including the
authority to, upon probable cause, seek and execute warrants for arrest, search premises or seize
evidence, make arrests without a warrant while engaged in official duties, and carry firearms.




      36                                                         Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


Legacy Cases 
Investigation of a Volunteer Homicide at a West African Post  

The U.S. ambassador to a West African post hosted a gathering of former and current law enforcement
officials to consider strategies to further the investigation of a Volunteer homicide that occurred in
1998. Law enforcement officials collectively decided that all investigative files would be consolidated
under the auspices of the embassy’s regional security officer. It was further decided that the local
attorney representing the family’s interests in this matter will be replaced. The ambassador reaffirmed
his commitment to bringing justice to the family and friends of the deceased Volunteer.

Search for a Missing Volunteer at a South American Post  

OIG deployed investigators to Bolivia to search for a Volunteer missing since 2001. The investigation
was assisted by Bolivian government officials, the U.S. Embassy, and post staff. The search was
initiated when OIG learned a retired Bolivian police and military officer was alleged to have information
on the Volunteer’s whereabouts. The source claimed to have specific information about the Volunteer’s
death and the location of his remains. The search effort was unsuccessful and the source proved to be
unreliable. The investigation remains open. OIG will continue to pursue any credible leads about the
missing Volunteer. The Peace Corps will continue to coordinate with the Bolivian government and U.S.
Embassy in future efforts to locate the Volunteer.


Criminal and Misconduct­Related Investigations 
Sexual Assault Allegation at a West African Post  

A Peace Corps country director notified OIG about a possible sexual assault of a female Volunteer by a
fellow male Volunteer. OIG investigated the incident at the post and obtained subject and witness
statements that supported the victim’s allegations. Both Volunteers admitted to consuming large
quantities of alcohol prior to the incident. The male Volunteer resigned from the Peace Crops in lieu of
administrative separation. The female Volunteer took medical leave for counseling and care in
Washington, D.C., but subsequently returned to the post to complete her service.

Sexual Assault Allegation Involving a Former Volunteer 

OIG received allegations concerning inappropriate sexual activities of a returned Peace Corps Volunteer
(RPCV) who served in West Africa. OIG interviewed the alleged victim, who claimed the RPCV had
sexual relations with him when he was a 17- or 18-year-old middle school student. The RPCV
confirmed having had sexual relations with the student in exchange for favors while he lived with the
student’s family. The RPCV stated he believed the student was an adult at the time; however, he now
acknowledges the victim was a middle school student. The U.S. Attorney’s Office for Washington,
D.C., was unable to pursue prosecution in the case because of statutory limitations. The RPCV’s
scheduled deployment to West Africa with the Peace Corps was cancelled.
                               


April 1, 2010 to September 30, 2010                                                             37
Sexual Assault Allegation at a North African Post  

A Peace Corps country director notified OIG about a possible sexual assault of a female Volunteer by a
fellow male Volunteer. Essential facts surrounding the alleged sexual assault remain in dispute and
were not resolved by the investigation. The investigation disclosed that the Volunteers involved
engaged in drinking excessive alcohol. The male Volunteer was relocated in-country. The female
Volunteer received medical care at her home of record and hopes to return to complete her service.

Arrest of Former Employee for Embezzlement at a West African Post  

OIG learned that a former contract employee who disappeared in 2007 after embezzling approximately
$43,000 in Peace Corps funds had returned to the country. With the assistance of OIG and the
embassy’s regional security officer, local police arrested the former contract employee.

In support of the prosecution, OIG provided local law enforcement with an OIG investigative summary
and an audit report. A local judge ordered the former contract employee to remain incarcerated until the
trial. OIG referred the incident to the Department of Justice’s (DOJ’s) Office of Foreign Litigation,
which will oversee the interests of the U.S. government in the matter. Additionally, DOJ is considering
the case for prosecution.

Extortion, Abuse of Authority, and Misconduct Allegations at an African Post  

OIG received an allegation that a contract employee was suspected of using his/her position for personal
financial gain. The investigation determined that the contract employee had solicited loans from other
staff, misused his/her authority, and used post vehicles for personal use. Additionally, the contract
employee failed to exert proper control over the motor pool operations and had frequent unexplained
absences from post. Allegations that the contract employee was also involved in a kickback scheme
were not proven. The contract employee was placed on probation and subsequently terminated.

Improper Selection Criteria Allegation at Headquarters  

A former employee sent a complaint via the OIG hotline alleging that a regional manager insisted that
applicants be asked whether or not they were married or had dependants. As a result, those applicants
who were married or had children were not selected. The former employee allegedly refused to follow
this practice and, as a result, the former employee was not granted an extension of employment. An OIG
inquiry found no evidence to substantiate the allegation.

Delinquent Reporting of a Missing Thumb Drive at Headquarters  

OIG initiated an investigation into a lost Peace Corps thumb drive that contained personal identifiable
information (PII). The investigation disclosed that the thumb drive was unsecured for less than an hour.
OIG briefed the Office of Safety and Security and the Office of the Chief Information Officer about the
potential breach of PII. The incident was reported to the U.S. Computer Emergency Readiness team
and individuals potentially affected by the security breach were informed.
                               



      38                                                        Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


Volunteer Arrested for Drug Possession at a Central Asia Post  

OIG received a report that a Volunteer had been arrested by host country law enforcement for
possession of narcotics. The initial report indicated that the Volunteer was in possession of a small
amount of what police believed to be hashish. The post retained a local lawyer to represent the
Volunteer’s interests during initial legal proceedings. During a subsequent OIG investigation the
Volunteer admitted to possessing and using a small quantity of marijuana. The Volunteer was convicted
of a local narcotics charge and resigned in lieu of administrative separation.

Conflict of Interest Involving Selection Criteria for a Vacancy Announcement  

An anonymous complaint was received, via the OIG Hotline inbox, alleging that an employee had
tailored a position description for which that employee was subsequently selected. The allegation
specifically stated that the employee tailored the vacancy announcement so he/she would be the best-
qualified candidate. Shortly thereafter, the employee applied for, and was promoted to, the position.
Further, it was alleged that the employee lacked the requisite one year time-in-grade requirement and
that the vacancy was not advertised for the appropriate time period. The OIG investigation found no
evidence of wrongdoing in regard to the employee’s participation in the selection process and
promotion.

Misconduct Allegation Involving a Senior Headquarters Employee  

OIG received an allegation from a country director that, while the employee was at post, the employee
allegedly stayed at the finest hotels and conducted personal sightseeing trips on official time. OIG
interviewed personnel at the post, at Peace Corps headquarters, and the employee. Additionally, OIG
reviewed official travel authorizations, travel vouchers, and time sheets. The inquiry disclosed no
evidence of wrongdoing by the employee.

Wrongful Termination Allegation at Headquarters  

In a letter directed to the IG, a former employee, who served in an African post, raised several concerns
about his/her alleged wrongful termination. The former employee alleged that he/she was wrongfully
terminated by Peace Corps senior management without warning or adequate justification. OIG’s review
of this matter is ongoing.

Embezzlement Scheme Allegation at a Central American Post  

OIG investigated an allegation that a program training specialist, who was a personal services contract
staff member at a Central American post, had embezzled funds from the post. The investigation
confirmed that the staff member had forged a reviewing official’s initials and presented fraudulent
receipts for payment. The investigation determined that the employee had embezzled over $600 from
the post. As a result of these findings, the staff member resigned from the Peace Corps.
                               




April 1, 2010 to September 30, 2010                                                             39
Child Abuse Allegation at a West African Post  

OIG investigated an allegation that a Volunteer had assaulted a child at a West African post. The
allegation was received through the OIG hotline inbox from an individual who read about the incident
on the Volunteer’s Internet blog. OIG interviewed village elders and potential witnesses; no statements
were made and no evidence was discovered to substantiate the allegation. The Volunteer resigned from
Peace Corps service prior to OIG’s investigation of the allegation.

Investigation of Federal Employee’s Compensation Act Recipients  

The Investigation Unit continues to monitor Federal Employees’ Compensation Act (FECA) claims.
Last calendar year (2009), the Peace Corps paid $12.2 million for 1,386 active claims for medical care
and disability compensation for former staff members and Volunteers who were injured or became ill on
the job or during their Peace Corps service. As of the end of this reporting period, Peace Corps spent
approximately $13.1 million on active FECA claims. Unlike other federal entities, workers
compensation programs are not limited to agency employees. Under 20 C.F.R. § 10.730, “[A]ny injury
sustained by a Volunteer or Volunteer leader while he or she is located abroad presumed to have
sustained in the performance of duty, and any illness contracted during such time shall be presumed to
be proximately caused by the employment.” In addition, any pre-existing condition that may have been
aggravated by Peace Corps service is also included.

The Investigation Unit also conducted FECA reviews and alive and wellness checks in San Francisco
and the surrounding area. Ten RPCVs were visited. The RPCVs’ ages and injuries varied. No
allegations of fraud were detected during the visits.

OIG FECA Investigation Saves Agency over $725,000  

OIG investigated an RPCV who had also been a Peace Corps staff member in the late 1990s. OIG’s
review of U.S. Department of Labor (DOL) district office records disclosed the RPCV had been
obtaining full disability income since 2000.

OIG interviewed the RPCV and it was disclosed that he had income, which had not been reported to
DOL. Investigators traveled to the Office of Workers Compensation Program (DOL/OWCP) District
Office in Dallas and met with DOL officials; the RPCV’s benefits were terminated on July 22, 2010.
Estimated savings to the agency will be $19,920 this calendar year and over $725,000 in future
payments. The case has been referred to the appropriate U.S. Attorney’s Office.




      40                                                       Semiannual Report to Congress
                                                   Tables 

1: List of Reports: Audits, Evaluations, and Reviews 


     Headquarter Audits
       Office of Safety and Security: Volunteer Safety and Security Program Audit


     Post Audits and Special Reviews
       PC/Kenya: Audit
       PC/Moldova: Audit
       PC/Paraguay: Audit
       PC/Suriname: Audit
       PC/Ecuador: Special Review
       PC/Vanuatu: Special Review
       Peer Review of the Audit Organization of the Library of Congress Office of Inspector General


     Country Program Evaluations
       PC/Suriname: Country Program Evaluation
       PC/Togo: Country Program Evaluation
                                 




     42                                                                 Semiannual Report to Congress
                                   PEACE CORPS OFFICE OF INSPECTOR GENERAL


2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use 


                                                                        Questioned           Unsupported      Funds Put to
Rec#                                    Report
                                                                           Costs 1             Costs 2         Better Use 3
Office of Safety and Security: Volunteer Safety and Security Program Audit
 17      Placement of PCSSOs overseas                                        -                     -            $185,000

PC/Ecuador: Special Review
B.1.1
       Loss from sale of PC vehicles                                            $54,000            -                -
B.1.2
D.1.1 Minimizing the cost of termination payments                                   -              -           $1,200,000

PC/Kenya: Audit
       Peace Corps vehicle sitting idle and awaiting sale for over two
E.2.1                                                                               -              -             $23,000
       years due to the absence of registration documents
 F.1.1 Miscalculation of 2010 PSC contracts                                       $800             -                -

PC/Paraguay: Audit
       Five Peace Corps Partnership Program projects that did
A.3.1                                                                               -           $39,844             -
       not have receipts of payment
D.3.1 Inaccurate personal services contractor bonus                                 -                             $210

PC/Suriname: Audit
       Emergency payments made to Volunteers due to the late arrival
C.1.1 of living allowance checks that were not deducted from                     $1,733            -                -
       subsequent living allowance payments
       Volunteers’ hotel and per diem charges in the capital resulting
C.1.2                                                                               -              -             $1,785
       from the late arrival of the settling-in and living allowance checks

                                                                Sub-Totals      $ 56,533        $39,844        $1,409,995
                                                                      Total                    $ 1,506,372

                                     




1
  Questioned Costs – a cost that is an alleged violation of government or Peace Corps regulations. For example: prohibited
purchases and expenditure of funds for purposes that do not relate to the Peace Corps mission.
2
  Unsupported Costs – a cost that is not supported by adequate documentation.
3
  Funds Put to Better Use – a cost that could be used more efficiently, such as costs for unnecessary goods or services.

April 1, 2010 to September 30, 2010                                                                               43
3: Status of Reports Issued by OIG with Questioned and Unsupported Costs 


                                                                        Number of   Questioned     Unsupported
                                                                         Reports      Costs           Costs
A. Reports issued prior to this period
  For which no management decision has been made on any issue               -           -                   -
  For which some decisions had been made on some issues                     -           -                   -

B. Reports issued during this period                                        4        $56,533             $39,844

Totals of Categories A and B                                                4        $56,533             $39,844

C. For which final management decisions were made during this period
 Dollar value of disallowed costs                                           4        $56,533             $39,844
 Dollar value of costs not disallowed                                       0           -                   -

D. For which no management decisions were made during this period           -           -                   -

E. For which management decisions were made on some issues during                                           -
                                                                            -           -
this period

Totals of Categories C, D, and E                                            4        $56,533             $39,844
Total questioned costs and unsupported costs                                4                  $96,377
                                    




      44                                                               Semiannual Report to Congress
                                   PEACE CORPS OFFICE OF INSPECTOR GENERAL


4: Status of Reports Issued by OIG with Funds to be Put to Better Use 


                                                                                Number of   Funds Put to
                                                                                 Reports     Better Use
A. Reports issued prior to this period
  For which no management decision has been made on any issue                       -            -
  For which some decisions had been made on some issues                             -            -

B. Reports issued during this period                                                5        $1,409,995

Totals of Categories A and B                                                        5        $1,409,995

C. For which final management decisions were made during this period
 Dollar value of recommendations agreed to by management                            4        $1,224,995
 Dollar value of recommendations not agreed to by management                        1         $185,000

D. For which no management decisions were made during this period                   -            -

E. For which management decisions were made on some issues during this period       -            -

Totals of Categories C, D, and E                                                    5        $1,409,995
                                    




April 1, 2010 to September 30, 2010                                                             45
5: Reports with Recommendations on which Corrective Action has not been Completed 

Post Audits and Country Program Evaluations 

                                       Recommendations Open 60 Days or More
                                                                                 Number of Open       Number of Agency
                              Report                             Date Issued
                                                                                 Recommendations      Non-Concurrence 4
    PC/Suriname: Evaluation                                        7/12/2010           5                     -
                                                                       Total :         5                     -


                                    Recommendations Open 120 Days or More
                                                                                 Number of Open       Number of Agency
                              Report                             Date Issued
                                                                                 Recommendations      Non-Concurrence
    PC/HQ Peace Corps’s Process for Soliciting, Awarding, and
                                                                   3/22/2010            15                   1 (1)
    Administering Contracts
    PC/HQ Office of Safety and Security Audit                      4/1/2010             24                   0 (1)
                                                                       Total:           39                   1 (2)


                                    Recommendations Open 180 Days or More
                                                                                 Number of Open       Number of Agency
                              Report                             Date Issued
                                                                                 Recommendations      Non-Concurrence
    PC/HQ Travel Policies and Procedures Audit                    6/27/2006            3                     -
    PC/HQ Medical Clearance System: Evaluation                     3/31/2008           9                   0 (1)
    PC/HQ Volunteer Safety and Security: Evaluation               8/28/2008            6                   1 (3)
    PC/Swaziland: Audit                                            1/8/2009            1                     -
    PC/Guinea: Audit                                              3/31/2009            2                     -
    PC/HQ Purchase Card Program: Audit                             3/31/2009           8                   4 (1)
    PC/Jordan: Evaluation                                          9/10/2009           9                     -
    PC/Burkina Faso: Audit                                        10/27/2009           1                     -
    PC/Turkmenistan: Evaluation                                   11/16/2009           5                     -
    PC/Cape Verde Island: Audit                                   12/2/2009            2                     -
    PC/Tanzania: Audit                                             1/5/2010            2                     -
    PC/HQ Office of Chief Information Officer: Budget
                                                                   1/11/2010            23                   4 (1)
    Formulation and Management Audit
    PC/Mongolia: Audit                                             2/1/2010             1                      -
                                                                       Total:           72                   9 (6)




4
    Numbers in parenthesis indicate the number of open recommendations with which the agency partially concurred.

          46                                                                Semiannual Report to Congress
                                    PEACE CORPS OFFICE OF INSPECTOR GENERAL


Financial Statement and FISMA 5  Recommendations 

                                                Recommendations Open
                                                                                 Number of Open        Number of Agency
                              Report                              Date Issued
                                                                                 Recommendations       Non-Concurrence 6
    PC/HQ FY 2009 Financial Statement Audit                       11/15/2009           15                     -
    PC/HQ FY 2009 Information Security Program Audit              11/18/2009           24                     -
                                                                       Total:          39                     -




Special Reviews 

                                       Recommendations Open 60 Days or More
                                                                                 Number of Open        Number of Agency
                              Report                              Date Issued
                                                                                 Recommendations       Non-Concurrence
    PC/Morocco: Inquiry of Volunteer Death                                             3                      -
    PC/Morocco: Assessment of Medical Care                                             8                      -
                                                                        Total:         11                     -
                                        




5
 All recommendations issued in conjunction with these two reports are part of a normal 12-month audit cycle. As a result,
recommendations made during a given fiscal year will remain in an open status during the entire subsequent fiscal year. At
the beginning of each new fiscal year the auditors will notify management of whether sufficient corrective actions have been
taken regarding the prior year recommendations and issue their current notification of findings and recommendations. Prior
year findings and recommendations may be re-issued if management has not taken sufficient corrective actions.
6
    Numbers in parenthesis indicate the number of recommendations with which the agency only partially concurred.

April 1, 2010 to September 30, 2010                                                                                 47
6: Summary of Investigative Activity 


                      Cases                                                       Number        Value
                      Cases Opened as of 04/1/2010                                  34
                      Cases Opened during 4/1/2010 - 9/30/2010                      8
                      Cases Closed that were previously Opened                       4
                      Cases Open and Closed during 4/1/2010 - 9/30/2010              5
                      Total Open Cases as of 10/1/2010                              33
                      Referrals for Department of Justice for Prosecution           1
                      Referrals for Agency Administrative Action                    9
                      Referrals to Other Agencies                                    0

                      Domestic Court Actions
                      Trial(s) Pending                                               1
                      Convictions                                                    0
                      Acquittals                                                     0
                      Judgments                                                      0
                      Fines/Restitution                                              0

                      Overseas Court Actions
                      Ongoing Prosecutions                                           3
                      Convictions                                                    0
                      Acquittals                                                     0
                      Judgments                                                      0
                      Fines/Restitution                                              0

                      Monetary Results
                      Annual Savings                                                 1         $19,920
                      Recoveries/Restitution                                         0
                      Cost Avoidance                                                 1        $725,000

                      Administrative Actions 7
                      Employees (Resignations and Terminations)                      4
                      Other Employee Actions                                         1
                      Other Persons/Businesses                                       0
                      Suspension/Debarment Referrals                                 0
                                     




7
 For the purpose of reporting investigative activity, Peace Corps Volunteers/trainees are included under the categories of
“Referrals for Agency Administrative Action” and “Administrative Actions.”

       48                                                                    Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL


7: Summary of Hotline and Other Complaints 


               Complaints Received                         18
               Complaints Closed                           18

               Awaiting OIG Action                         0
               Resulted in Investigations                  4
               Resulted in Audits                          1
               Resulted in Evaluations                     1
               Referred to Agency Management                1
               Referred to Other Agency                     1
               No Action Needed                            10
                          




April 1, 2010 to September 30, 2010                                49
8: References to Reporting Requirements of the Inspector General Act 


 Act Reference      Reporting Requirements                                                                Page
 Section 4(a)(2)    Review of legislation and regulations                                                 n/a
 Section 5(a)(1)    Significant problems, abuses, and deficiencies                                        8-34
 Section 5(a)(2)    Significant recommendations for corrective actions                                    8-34
 Section 5(a)(3)    Prior significant recommendations on which corrective action has not been completed   46
 Section 5(a)(4)    Matters referred to prosecuting authorities                                           36-40
 Section 5(a)(5)    Summary of instances where information was refused                                    n/a
 Section 5(a)(6)    List of audit reports, including evaluations, inspections, and reviews                42
 Section 5(a)(7)    Summary of significant reports                                                        20-34
 Section 5(a)(8)    Statistical table - questioned and unsupported costs                                  43
 Section 5(a)(9)    Statistical table - funds to be put to better use                                     45
 Section 5(a)(10)   Summary of previous audit reports without management decisions                        n/a
 Section 5(a)(11)   Significant revised management decisions                                              n/a
 Section 5(a)(12)   Significant management decisions with which the Inspector General disagrees           n/a
 Section 5(a)(13)   Information under Federal Financial Management Improvement Act of 1996                n/a




      50                                                                 Semiannual Report to Congress
                                 PEACE CORPS OFFICE OF INSPECTOR GENERAL


                           Appendix: Reporting of Peer Reviews 

Pursuant to Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Public
Law No. 111-203), 8 the Peace Corps OIG reports the following peer review information:

During the reporting period, there were no peer reviews conducted of the Peace Corps OIG. The Audit
and Investigation Units are required to conduct peer reviews and be subject of a peer review every three
years.

Audit Unit  

In March 2008, The National Endowment for the Arts OIG conducted a peer review of the audit
organization of the Peace Corps OIG in effect for the year ending September 30, 2007. There were no
recommendations made.

In July 2010, Peace Corps OIG conducted a peer review of the audit organization of the Library of
Congress Office of Inspector General in effect for the year ending March 31, 2010. There were no
recommendations made.

Investigation Unit 

In October 2009, Peace Corps OIG conducted a peer review of the investigation organization of the
Library of Congress’s Office of Inspector General. There were six recommendations made; all have
been closed.




8
 Section 989C of the Frank Wall Street Reform and Consumer Protection Act amends Section 5(a) of the Inspector General
Act of 1978 (5 U.S.C. App.)

April 1, 2010 to September 30, 2010                                                                          51
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.

  Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful activity
  involving Peace Corps programs or personnel should call or write the Office of Inspector
              General. Reports or complaints can also be made anonymously.



                                            Call:
                                Main Office: 202.692.2900
                                   Hotline: 202.692.2915
                            Toll-free in the U.S.: 800.233.5874

                                          Write:
                                        Peace Corps
                                  Attn: Inspector General
                                    1111 20th St., NW
                                  Washington, DC 20526

                                            Or

                                       Peace Corps
                                 Attn: Inspector General
                                    P.O. Box 57129
                               Washington, DC 20037-7129

                                       Email:
                                  OIG@peacecorps.gov

                                      Website:
                                www.peacecorps.gov/OIG


All information and complaints will be treated confidentially unless OIG determines, during
               the course of the investigation, that disclosure is unavoidable.
